Report No. DODIG-2012-084                    May 10, 2012




     Air Force Aeronautical Systems Center Contracts
   Awarded Without Competition Were Properly Justified
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/ 13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
AFMC                          Air Force Materiel Command
ASC                           Aeronautical Systems Center
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System – Next Generation
GAO                           Government Accountability Office
J&A                           Justification and Approval
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA , VIRGINIA 22350-1500




                                                                             May 10, 201 2

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Air Force Aeronautical Systems Center Contracts Awarded Without
         Competition Were Properly Justified (Report No. DODIG-2012-084)

We are providing this report for your information and use. This report is the fifth in a
series of audit reports on DoD contracts awarded without competition. Air Force
Aeronautical Systems Center personnel properly prepared and approved adequate sole­
source justifications and approvals for other than full and open competition and generally
documented compliance with additional Federal requirements to supp0l1 those sole-source
determinations. We are publishing this report in final form because no written response to
this report was required, and none was received.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077). If you desire, we will provide a formal briefing on the
results.




                                           n~0~o(!))~~
                                           ~acqu~n~ L.-Wlcecarver
                                             Assistant Inspector General                .
                                             Acquisition and Contract Management
Report DODIG-2012-084 (Project No. D2012-D000CG-0038.000)		                                  May 10, 2012
	


              Results in Brief: Air Force Aeronautical
              Systems Center Contracts Awarded Without
              Competition Were Properly Justified
                                                          ASC contracting personnel:
   What We Did                                              •	 included all required data elements in
                                                                the J&As;
   Our audit objective was to determine
                                                            •	 appropriately applied the cited
   whether DoD noncompetitive contracts were
                                                                authority permitting other than full and
   properly justified as sole source. This report
                                                                open competition in the J&As;
   is the fifth in a series of reports on DoD
                                                            •	 obtained approval from the proper
   contracts awarded without competition and
                                                                authorities to issue noncompetitive
   includes contracts issued by the Air Force                   contract awards;
   Aeronautical Systems Center (ASC). We                    •	 generally documented compliance
   reviewed 23 noncompetitive contracts with                    with FAR Part 10, “Market Research,”
   an obligated value of about $519 million                     in the contract file; and
   that ASC contracting personnel awarded in                •	 complied with FAR Subpart 5.2,
   FY 2010 and FY 2011.                                         “Synopses of Proposed Contract
                                                                Actions,” when synopsizing actions
   Full and open competition is the preferred                   that required a presolicitation notice,
   method for Federal agencies to award                         with the exception of including all
   contracts. Section 2304, title 10, United                    required language in the
   States Code, and Section 253, title 41,                      presolicitation notice.
   United States Code require contracting
   officers to promote and provide for full and           Management Comments
   open competition when soliciting offers and
                                                          We do not require a written response to this
   awarding contracts. Contracting officers
                                                          report.
   may use procedures other than full and open
   competition under certain circumstances.
   However, each contract awarded without
   providing for full and open competition
   must conform to policies and procedures in
   Federal Acquisition Regulation (FAR)
   Subpart 6.3, “Other Than Full and Open
   Competition.”

   What We Found
   ASC contracting personnel properly
   prepared and approved sole-source
   justifications and approvals (J&As) for other
   than full and open competition and generally
   documented compliance with additional
   Federal requirements to support those
   sole-source determinations for 23 contracts.



                                                    i
	
Table of Contents
Introduction	                                                                1


      Objective                                                              1

      Background                                                             1

      Air Force Aeronautical Systems Center                                  1

      Contracts Reviewed at ASC                                              2

      Review of Internal Controls at ASC                                     2


ASC Contract Awards Were Properly Justified As Sole Source 	                 3
	

      ASC Procurements Reviewed Required Awarding Sole-Source Contracts      3

      ASC Personnel Adequately Supported Sole-Source Determinations          3

      ASC Personnel Complied With Additional Regulations That Supported 

         Sole-Source Determinations                                          5

      ASC Lack of Technical Data Rights Limited Competition                  8

      Summary                                                                9


Appendices

      A. 	Scope and Methodology                                             10 

             Universe and Sample Information                                10 

             Review of Documentation and Interviews                         11 

             Use of Computer-Processed Data                                 12 

             Use of Technical Assistance                                    12 

             Prior Coverage                                                 12 

      B. 	Federal Acquisition Regulation (FAR) Criteria                     14 

             FAR Subpart 5.2, “Synopses of Proposed Contract Actions”       14 

             FAR Subpart 6.3, “Other than Full and Open Competition”        14 

             FAR Part 10, “Market Research”                                 15 

      C. Noncompetitive Contracts Reviewed	                                 17 

      D. Market Research Conducted	                                         20 

Introduction
Objective
Our objective was to determine whether noncompetitive contract awards were properly
justified as sole source at Air Force Aeronautical Systems Center (ASC), Wright
Patterson Air Force Base, Ohio. This report is the fifth in a series of reports on DoD
contracts awarded without competition. See Appendix A for the scope and methodology
and prior coverage related to the objective.

Background
Full and open competition is the preferred method for Federal agencies to award
contracts. Section 2304, title 10, United States Code, “Contracts: Competition
Requirements,” and section 253, title 41, United States Code, “Competition in
Contracting Act of 1984,” require contracting officers to promote and provide for full and
open competition when soliciting offers and awarding contracts. Promoting competition
in Federal contracting presents the opportunity for significant cost savings. In addition,
competitive contracts can help improve contractor performance, prevent fraud, and
promote accountability for results.

Contracting officers may use procedures other than full and open competition under
certain circumstances. However, each contract awarded without full and open
competition must conform to policies and procedures in the Federal Acquisition
Regulation (FAR) Subpart 6.3, “Other Than Full and Open Competition.”
FAR Subpart 5.2, “Synopses of Proposed Contract Actions,” establishes policy to require
agencies to make notices of proposed contract actions available to enhance competition.
FAR Part 10, “Market Research,” provides policies and procedures for conducting
market research to arrive at the most suitable approach for acquiring, distributing, and
supporting supplies and services. See Appendix B for additional information on
FAR subpart 6.3, FAR subpart 5.2, and FAR part 10.

Air Force Aeronautical Systems Center
ASC is the largest of three product centers within the Air Force Materiel Command
(AFMC). ASC designs, develops, and delivers aerospace weapon systems and
capabilities for the U.S. Air Force, other U.S. military; and allied and coalition-partner
warfighters in support of Air Force priorities. ASC manages more than 400 Air Force
joint and international aircraft acquisition programs and related projects and executes an
annual budget of $23 billion. ASC’s portfolio includes capabilities in fighters and
bombers; intelligence, surveillance and reconnaissance; special operations forces;
mobility; combat support; and the KC-46A tanker.




                                             1

Contracts Reviewed at ASC
Based on our Federal Procurement Data System - Next Generation (FPDS-NG) queries,
ASC contracting personnel awarded 242 C and D type contract actions 1 with an obligated
value 2 of about $1 billion during FY 2010 and FY 2011. Of the 242 contract actions,
ASC contracting personnel awarded 64 noncompetitive contracts, with an obligated value
of $923 million that were within the scope 3 of our review. We selected a nonstatistical
sample of 31 noncompetitive contracts with an obligated value of $913 million to review.
We excluded 17 contracts from our initial sample because they were outside the scope of
our audit: 12 cited the national security exemption, 4 were small business set asides, and
1 was improperly coded in the FPDS-NG as a noncompetitive contract. We also
excluded two contracts because one contract was transferred to a different contracting
office and one contract will be reviewed in a separate audit. During fieldwork we added
an additional 11 noncompetitive actions for review. In total, we reviewed 23 contracts
with an obligated value of about $519 million (the total value of the 23 contracts, as of
October 17, 2011, was about $1.8 billion). See Appendix C for specific noncompetitive
contract awards reviewed.

Review of Internal Controls at ASC
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. ASC’s internal controls over
its processes for issuing noncompetitive contract awards we reviewed were effective as
they applied to the audit objective.




1
  Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “Contracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD,” and D type contracts as “Indefinite delivery contracts.”
2
  Data obtained in FPDS-NG is reported on an individual action basis (that is, single modification). As a
result, we combined all actions identified for a given contract to determine the number of contracts awarded
during FY 2010 and FY 2011 and their respective obligated amounts.
3
  Our scope was limited to actions issued on contracts that were awarded during FY 2010 and FY 2011.
Actions were coded as either a “noncompetitive delivery order” or “not competed” and did not receive
more than one offer as identified in FPDS-NG.



                                                     2

ASC Contract Awards Were Properly
Justified As Sole Source
ASC contracting personnel properly justified the use of other than full and open
competition on the Justification and Approvals (J&As) for other than full and open
competition for all 23 contracts, with an obligated value of about $519 million.
ASC contracting personnel complied with FAR 6.303-2, “Content,” requirements in the
J&As, appropriately applied the authority cited for permitting other than full and open
competition for all 23 J&As, and obtained approval from the proper personnel before
contract award. Further, ASC contracting personnel generally documented compliance
with FAR part 10, “Market Research,” and FAR subpart 5.2, “Synopses of Proposed
Contract Actions,” in the contract files to support sole-source determinations.

ASC Procurements Reviewed Required Awarding Sole-
Source Contracts
ASC contracting personnel had limited or no opportunities to fully compete 17 of the
23 contracts reviewed because of the specialized nature of products and services being
procured. ASC contracting personnel could not reasonably compete the 17 contracts
because only the original equipment or software manufacturer could meet the
Government’s requirements. ASC contracting personnel awarded the remaining 6 sole-
source contracts for short term service bridge contracts, 5 of which maintained coverage
before issuance of a competitive action. Table 1 below illustrates the contract source, the
number of contracts, and the dollar value for the contracts reviewed at ASC. ASC
contracting personnel properly justified the use of other than full and open competition
for all 23 contracts reviewed.
        Table 1. Number of Contracts and Dollar Value by Contract Source
                                      Number of
             Contract Source                                 Dollar Value
                                      Contracts
        Original equipment               14                 $1,659,176,316
        manufacturer
        Original service provider           3                 84,152,152
        Short term bridge                   6                 14,795,333
        contract
                            Total          23               $1,758,123,801*
      *Total obligated value as of October 17, 2011.

ASC Personnel Adequately Supported Sole-Source
Determinations
ASC contracting personnel adequately supported the use of other than full and open
competition on the J&As for all 23 contracts. ASC contracting personnel documented all
the required elements of FAR 6.303-2 and obtained approval from the proper official
within the required time frames for each of the 23 J&As. In addition, ASC contracting


                                             3

personnel properly justified the issuance of the noncompetitive contract in the J&As.
FAR 6.302, “Circumstances Permitting Other Than Full and Open Competition,” lists the
seven exceptions permitting contracting without full and open competition. A
contracting officer must not begin negotiations for or award a sole-source contract
without providing full and open competition unless the contracting officer justifies the
use of such action in writing, certifies the accuracy and completeness of the justification,
and obtains approval of the justification.

ASC Personnel Complied With J&A Content Requirements
ASC personnel adequately documented compliance with content requirements for the
23 J&As. FAR 6.303-2 identifies the minimum information that must be included in a
J&A. FAR 6.303-1, “Requirements,” requires the contracting officer to: justify the use
of full and open competition, certify the accuracy and completeness of the J&A, and
obtain the proper approval. ASC contracting personnel complied with the FAR
requirements for all 23 actions reviewed. In addition, ASC contracting personnel
properly documented that the contract action was within the scope for all 8 actions
awarded under a Class J&A 4 as required by FAR 6.303-1.

ASC Personnel Met J&A Content Requirements
ASC personnel prepared J&As for other than full and open competition that complied with
the FAR 6.303-2 content requirements. Contracting officers must follow FAR 6.303-2
which identifies the minimum information that must be included in a J&A. FAR 6.303-2
requires that the J&A include a description of the supplies or services required to meet
the agency’s needs, the estimated value, and the statutory authority permitting other than
full and open competition. The J&A must also include a statement of the actions the
agency may take to remove any barriers to competition before any subsequent acquisition
for the supplies or services. ASC contracting personnel included all of the required
elements as outlined in FAR 6.303-2 in the J&As for all 23 actions.

ASC Personnel Met J&A Market Research Content Requirements
ASC personnel adequately documented their market research efforts in the J&As for all
23 contracts reviewed. FAR 6.303-2 states that the J&A should include a description of
the market research conducted and the results, or a statement of the reason market
research was not conducted. Additionally, FAR 6.303-2 requires a listing of sources, if
any, that expressed, in writing, an interest in the acquisition. ASC contracting personnel
included a description of the market research performed or a statement of the reason
market research was not performed, and a listing of sources, as required by FAR 6.303-2,
in all 23 J&As.




4
 A class J&A provides authority for a class (or group) of contracts for the same or related supplies or
services that require essentially identical justifications. The contracting officer must make a written
determination that an individual contract action may be awarded within the scope of a class J&A before
such actions are awarded. FAR 6.303-l(c).


                                                    4

ASC Personnel Appropriately Applied the Sole-Source
Authority Cited
ASC personnel appropriately applied the cited authority permitting other than full and
open competition in each of the 23 J&As reviewed. Contracting personnel awarded
22 contracts that cited the authority of FAR 6.302-1, “Only One Responsible Source and
No Other Supplies or Services Will Satisfy Agency Requirements.” For each of the
22 contracts, ASC personnel provided adequate rationale in the J&A as to why only one
contractor could provide the required product or service and why only that product or
service could meet the Government’s requirements. ASC contracting personnel awarded
one contract that cited the authority of FAR 6.302-2, “Unusual and Compelling
Urgency.” ASC personnel provided adequate rationale in the J&A that supported the
unusual and compelling urgency of the acquisition and the reason why only one product
could meet the Government requirements. Further, the contract specified a delivery
schedule that did not exceed the time limitations established by FAR 6.302-2(d). See
Appendix C for additional information on the 23 contracts reviewed.

ASC Personnel Obtained Proper Approval for Sole-Source
Contract Awards
ASC personnel obtained approval from the proper authorities before awarding
23 sole-source contracts. FAR 6.304 defines proper approval authority at various
thresholds for the estimated dollar value of the contract. During FY 2010 and FY 2011,
the procuring contracting officer was authorized to approve sole-source awards up to
$650,000 and the procuring activity’s competition advocate was authorized to approve
sole-source awards more than $650,000 but not exceeding $12.5 million. ASC
contracting officers approved 3 J&As that had an estimated value of $650,000 or less.
The competition advocate approved the 5 J&As valued at more than $650,000 but not
exceeding $12.5 million. For greater than $12.5 million but not exceeding $62.5 million,
the FAR authorizes the head of the procuring activity to provide final approval and the
senior procurement executive for actions exceeding $$62.5 million. The Commander,
ASC, approved 5 J&As that had an estimated value of more than $12.5 million but not
exceeding $62.5 million. The senior procurement executive approved 9 J&As for actions
exceeding $62.5 million. ASC personnel obtained the proper approval before contract
award for all 23 J&As.

ASC Personnel Complied With Additional Regulations
That Supported Sole-Source Determinations
ASC personnel generally performed market research efforts and included adequate
documentation in the contract files to support FAR part 10 and FAR subpart 5.2
compliance for all 23 contracts reviewed. In addition, ASC contracting personnel
included adequate documentation to support that the proposed contract actions were
properly synopsized in the Government-wide Point of Entry, which is accessed on the
Internet at https://www.fedbizopps.gov, with the exception of including the required
language outlined in FAR 5.207(c)(15) and (16) in the synopses. As a result, ASC
contracting personnel generally complied with FAR part 10 and FAR subpart 5.2
requirements to support ASC sole-source determinations.


                                           5

ASC Contracting Personnel Conducted Market Research
Appropriate to the Circumstance
ASC contracting personnel completed market research for 12 of the 22 5 contracts that
required market research and performed limited or no market research for 10 contracts
because the circumstance associated with the contracts justified limited market research.
FAR 10.001 states that agencies must conduct market research appropriate to the
circumstances before soliciting offers for acquisitions with an estimated value in excess
of the simplified acquisition threshold. ASC contracting personnel performed limited or
no market research for 10 contracts for the following reasons.
    •	 For four contracts, ASC contracting personnel performed limited market research
        on short-term bridge contracts that they awarded to continue contractor
        performance before making competitive awards.
    •	 For two contracts, ASC contracting personnel performed limited market research
        for seven King Air 350ER aircraft where the operational requirements called for
        fleet uniformity and rapid delivery. ASC contracting personnel had performed
        extensive market research on earlier procurements for 37 of the same aircraft.
    •	 For the remaining four contracts, ASC contracting personnel performed no market
        research because the original equipment manufacturer owned the data rights and
        changing contractors or purchasing the data rights was cost prohibitive and might
        not have generated cost savings.
ASC contracting personnel were justified in performing limited or no market research for
these 10 contracts; therefore, we are not making a recommendation. See Appendix D for
additional information on market research performed on the 23 contracts.

ASC Personnel Generally Complied With Synopsis
Requirements
ASC contracting personnel complied with FAR requirements when synopsizing 19 of the
20 proposed contract actions that required a presolicitation notice. FAR 5.2, “Synopses
of Proposed Contract Actions,” requires contracting officers to transmit a notice to the
Governmentwide Point of Entry for each proposed contract action expected to exceed
$25,000, other than those covered by one of the 14 exceptions identified in FAR 5.202,
“Exceptions.” The primary purposes of the notice are to improve small business access
to acquisition information and enhance competition by identifying contracting and
subcontracting opportunities. However, for contract FA8620-11-C-4011, ASC personnel
referenced that a synopsis was completed in the J&A but could not provide evidence that
notice was published to the Governmentwide Point of Entry. ASC contracting personnel
issued contract FA8620-11-C-4011 to procure aircraft for Project Liberty efforts
supporting contingency operations. ASC contracting personnel reasonably anticipated




5
  ASC contracting personnel were not required to perform market research on one contract because the
estimated value was less than the simplified acquisition threshold, and adequate information was available
to justify the sole-source nature of the contract.


                                                     6

limited sources because the contractor was the original equipment manufacturer and fleet
uniformity was cost effective, available in required time frames, and in the Government’s
interest.

In accordance with FAR 5.202(a)(2), (5), or (6), ASC contracting personnel were exempt
from issuing a synopsis for 3 of the 23 contracts reviewed. Contracting officers are
exempt from issuing a synopsis under FAR 5.202(a)(2) when the proposed contract
action is made under the conditions described in FAR 6.302-2, ”Unusual and Compelling
Urgency,” and the Government would be seriously injured if the agency complies with
the publicizing and response times specified in the FAR. In addition, contracting officers
are exempt from issuing a synopsis under FAR 5.202(a)(5) when the proposed action is
for utility services other than telecommunications services and only one source is
available. Contracting personnel are also exempt from issuing a synopsis under
FAR 5.202(a)(6) when the proposed contract action is an indefinite-delivery contract
placed under Subpart 16.5.

ASC contracting personnel did not include one or both of the statements required by
FAR 5.207, “Preparation and Transmittal of Synopses,” in 5 of the 19 synopses available
for our review. FAR 5.207(c)(14), 6 requires the synopsis of noncompetitive contract
actions to identify the intended source and a statement of the reason justifying the lack of
competition. FAR 5.207(c)(15) requires the synopsis for all noncompetitive contract
actions to include a statement that all responsible sources may submit a capability
statement, bid, proposal, or quotation, “which shall be considered by the agency.”In all
five instances, ASC contracting personnel’s omission of the intended source or statement
that the agency would review any contractor submissions received was prudent given the
acquisition. Three of the five contracts were short term bridge contracts used to ensure
continuity of service before competitive award, one contract was for a follow on purchase
from the original equipment manufacturer, and the final contract was for the acquisition
of a modified commercial item. We are not making a recommendation because ASC
personnel included sufficient support in the five J&As and within the synopsis notice to
show that competition could not be reasonably anticipated. Table 2 identifies the
five noncompetitive contracts that did not include the statement or statements required by
FAR 5.207(c)(14) or FAR 5.207(c)(15).




6
  Effective May 31, 2011, the requirements in FAR 5.207(c)(14), FAR 5.207(c)(15)(i), and
FAR 5.207(c)(15)(ii) were moved to FAR 5.207(c)(15), FAR 5.207(c)(16)(i), and FAR 5.207(c)(16)(ii),
respectively.


                                                  7

Table 2. Contracts Not Compliant With FAR 5.207(c)(14) and/or FAR 5.207(c)(15)
	
                               Synopsis did not include the         Synopsis did not include
         Contract              statement required by FAR           the statement required by
                                      5.207(c)(14)                      FAR 5.207(c)(15)
FA8601-10-C-0042                            √
FA8604-11-C-7450                                                                 √
FA8620-10-C-3000                                                                 √
FA8620-11-C-3004                                                                 √
FA8620-10-C-3009                                                                 √

ASC Lack of Technical Data Rights Limited Competition
ASC contracting personnel cited the Government's lack of access to technical data as a
main cause for not competing 15 of the 23 contracts reviewed. The Government’s lack of
technical data was a result of contractors’ unwillingness to sell the data to the
Government, or that the Government would incur excessive, prohibitive, or duplicative
costs to acquire the data. As a result ASC contracting personnel had little choice but to
award sole-source contracts to the holders of the data rights, most often the original
equipment manufacturer. ASC personnel stated that procuring the data rights during
sustainment was not a cost effective option.

ASC contracting personnel did not obtain the technical data to increase competition for
15 of 23 because of prohibitive cost to obtain the technical data, the frequent
obsolescence and excessive cost of upgrades to specific systems, or the contractor’s
refusal to sell the technical data. For example, the J&A for advanced data transfer
equipment on the F-16 aircraft, contract FA8615-10-C-6046, identifies the total estimated
value of the award at $48 million, and a nonrecurring requirement. Furthermore, the
J&A stated that the contractor, who was the original equipment manufacturer of the
advanced data transfer unit, requested $46 million for the technical data of similar
equipment previously procured for the A-10 aircraft. ASC contracting personnel did not
purchase the technical data because of the nonrecurring nature of the acquisition and the
substantial cost of the technical data. ASC contracting personnel stated that the
additional costs would not be justified because no follow-on effort was required and as a
result no opportunity to compete future procurements existed to potentially recoup the
cost of procuring the technical data. The following figure illustrates the total number and
dollar value of contracts that cited the lack of technical data as a factor for other than full
and open competition.




                                              8

   Figure. Total Obligated Amount of Contracts Identifying Technical Data as a 

                Factor for Other Than Full and Open Competition
	



                                            $1,758                  Total Obligated Value of Contracts
                                                                    Reviewed

                                       $1,664                       Total Obligated Value of Contracts
                                                                    Reviewed Citing Data Rights Issues


                                   $1,515                           Total Obligated Value of Contracts
                                                                    Awarded for a Product Citing Data
                                                                    Rights Issues
                                                                    Total Obligated Value of Contracts
        $149
                                                                    Awarded for a Service Citing Data
                                                                    Rights Issues
   $0          $500       $1,000            $1,500         $2,000
                        Millions




Summary
ASC personnel properly prepared and approved adequate sole-source justifications and
approvals for other than full and open competition and generally documented compliance
with additional Federal requirements to support those sole-source determinations. ASC
contracting personnel adequately justified the use of other than full and open competition
on the J&As for all 23 contracts reviewed. ASC contracting personnel complied with
FAR 6.303-2 requirements in the J&As, appropriately applied the authority cited for all
23 J&As, and obtained approval from the proper personnel before contract award.
Further, ASC contracting personnel generally documented compliance with FAR part 10
and FAR subpart 5.2 in the contract files to support sole-source determinations. We are
not making recommendations.




                                                     9
	
Appendix A. Scope and Methodology
We conducted this performance audit from October 2011 through May 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Our scope was limited to noncompetitive contract awards during FY 2010 and FY 2011
to determine whether Air Force Aeronautical Systems Center (ASC), Wright Patterson
Air Force Base contracts awarded without competition were properly justified. We did
not review contracts that were awarded for national security purposes, foreign military
sales, classified contracts, or contracts that were improperly coded in the Federal
Procurement Data System-Next Generation (FPDS-NG) as noncompetitive. In addition,
we did not review contracts that were not truly sole source such as contracts that were
competitive one-bids or contracts set aside to develop small businesses.

In July 2011, DoD Office of Inspector General management decided the audit teams
would issue site reports under individual subprojects from the initial project. In
October 2011, we reannounced the revised audit approach of issuing separate audit
reports for each audit site as well as the revised audit objective to determine whether
DoD noncompetitive contract awards were properly justified as sole source. We
removed the specific objective to determine whether negotiated amounts were fair and
reasonable.

Universe and Sample Information
We used the FPDS-NG to identify noncompetitive contract actions issued by the Services
and Defense agencies during FY 2009 and FY 2010. The queries were limited to actions
issued on contracts that were awarded during FY 2009 and FY 2010 and coded as a
“noncompetitive delivery order” or “not competed” in FPDS-NG. The queries also
excluded contract actions that received more than one offer as identified in FPDS-NG.
We selected the four DoD Components with the highest dollar value of awards,
specifically, the Army, Navy, Air Force, and the Defense Logistics Agency to identify
specific audit locations. We focused our site selection on three sites for the Department
of the Air Force that awarded 20 or more C and D type noncompetitive contracts and
obligated approximately $200 million or more during FY 2009 and FY 2010. Our site
selection excluded sites that were visited during the review on noncompetitive contract
awards for Government Accountability Office Report No. GAO-10-833, “Opportunities
Exist to Increase Competition and Assess Reasons When Only One Offer Is Received,”
July 26, 2010. In addition, we reviewed reports the DoD Office of Inspector General,
Acquisition and Contract Management Directorate, issued from FY 2009 to April 2011
that covered acquisition and contracting issues and excluded sites that had been visited on
numerous occasions.




                                            10 

After identifying ASC as an audit site, we updated our data from contracts awarded
during FY 2009 and FY 2010 to contracts awarded during FY 2010 and FY 2011. The
updated data obtained from FPDS-NG resulted in a universe of 64 applicable contracts
for ASC. We requested 31 of the 64 contracts to review during our site visit to ASC at
Wright Patterson Air Force Base, Ohio. We chose our sample by using several different
factors to create a diverse, nonstatistical sample. We selected 31 contracts based on
different dollar amounts, products, services, and contract types. However, we did not
review contracts within the 31 selected that were awarded for national security purposes,
foreign military sales, classified contracts, or contracts that were improperly coded in the
FPDS-NG as noncompetitive. In addition, we did not review contracts that were not truly
sole source such as contracts that were competitive one bids or contracts set aside to
develop small businesses. During our review of the 31 initial contracts we identified and
excluded 17 contracts that were outside of our audit scope:
    •	 12 contracts that were issued for national security purposes,
    •	 4 contracts were excluded because it was exempt from competition under the
        small business 8(a) program, and
    •	 1 contract was miscoded as noncompetitive in FPDS-NG and was competed using
        full and open competition.

In addition, we also removed two contracts because one contract was transferred to
Tinker Air Force Base, Oklahoma, and one contract will be reviewed in a separate audit.

After removing the 19 contracts, we selected an additional 11 contracts from the original
64 contracts identified. Based upon the exclusions, and the additional contracts selected,
we reviewed 23 contracts with an obligated value of approximately $519 million. See
Appendix C for additional details on the noncompetitive contracts we reviewed.

Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:
  •	 FAR subpart 5.2, “Synopses of Proposed Contract Actions”;
  •	 FAR subpart 6.3, “Other Than Full and Open Competition”;
  •	 FAR part 10, “Market Research”; and
  •	 Air Force FAR Supplement Information and Guidance 5306, “Other Than Full
      and Open Competition,” July 14, 2011.

We interviewed contracting and oversight officials at AFMC, Wright Patterson Air Force
Base, Ohio, to obtain command policy and guidance related to the audit objective. We
interviewed contracting personnel at ASC, Wright Patterson Air Force Base, Ohio, to
discuss noncompetitive contract awards and to obtain information regarding the
noncompetitive contract files identified in our sample, specifically about the J&A and
market research. We also interviewed the Competition Advocate and the Small Business
Specialist at ASC to gain an understanding of their responsibilities and roles in
noncompetitive contract awards.




                                            11 

Use of Computer-Processed Data
We relied on computer-processed data from the FPDS-NG to establish the initial universe
for this audit by identifying noncompetitive contract actions issued by Military Services
and Defense agencies. We also used the data from the FPDS-NG to help determine the
contracting organizations to visit and to perform the nonstatistical sample selection. In
addition, we used the Electronic Document Access database to obtain contract
documentation, such as the contract and modifications to the contract before our site visit
to ASC. To assess the accuracy of the computer-processed data, we verified the FPDS-
NG and Electronic Document Access data against official records at the contracting
activity. We determined that data obtained through the Electronic Document Access
database was sufficiently reliable to accomplish our audit objective when compared with
contract records. We identified one miscoding in the data reviewed from FPDS-NG
when compared with contract documentation; however, we used FPDS-NG only to
identify the universe, to help determine the contracting organizations to visit, and to
identify our nonstatistical sample.

Use of Technical Assistance
We held discussions with personnel from the Department of Defense Office of Inspector
General’s Quantitative Methods and Analysis Division. We determined that we would
use FPDS-NG data to select a nonstatistical sample of contracting activities and then use
FPDS-NG data to select a nonstatistical sample of noncompetitive contracts to review.
During our site visit, we worked with ASC contracting personnel to verify that the
selected contracts met the scope limitations of our review and to identify additional
contracts that did not meet the selection criteria. Our nonstatistical sample was limited to
specific contracts, and our results should not be projected across other ASC-issued or Air
Force-issued contracts.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued three
reports discussing DoD use of noncompetitive contracts, the DoD IG issued four reports
discussing DoD use of noncompetitive contracts, and the Air Force Audit Agency has
issued one report discussing Air Force noncompetitive contract use. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed over the Internet at http://www.dodig.mil/audit/reports.
Unrestricted Air Force Audit Agency reports can be accessed over the Internet at
https://www.afaa.af.mil/.

GAO
GAO Report No. GAO-12-263, “Defense Contracting: Improved Policies and Tools
Could Help Increase Competition on DOD's National Security Exception Procurements,”
January 2012

GAO Report No. GAO-11-469, “DoD Should Clarify Requirements for Assessing and
Documenting Technical-Data Needs,” May 2011



                                            12 

GAO Report No. GAO-10-833, “Opportunities Exist to Increase Competition and Assess
Reasons When Only One Offer Is Received,” July 26, 2010

DoD IG
DoD IG Report No. DODIG-2012-077, “Naval Surface Warfare Center Crane Contracts
Awarded Without Competition Were Adequately Justified,” April 24, 2012

DoD IG Report No. DODIG-2012-076, “Army Contracting Command – Rock Island
Contracts Awarded Without Competition Were Properly Justified,” April 19, 2012

DoD IG Report No. DODIG-2012-073, “Natick Contracting Division’s Management of
Noncompetitive Awards Was Generally Justified,” April 10, 2012

DoD IG Report No. DODIG-2012-042, “Naval Air Systems Command Lakehurst
Contracts Awarded Without Competition Were Properly Justified,” January 20, 2012

Air Force Audit Agency
Air Force Audit Agency Report F2008-0059-FCI000, “Justification and Approval for Air
Force Acquisitions Ogden Air Logistics Center,” August 22, 2008




                                         13 

Appendix B. Federal Acquisition Regulation
(FAR) Criteria
FAR Subpart 5.2, “Synopses of Proposed Contract
Actions”
FAR 5.201, “General,” requires agencies to provide a synopsis of proposed contract
actions for the acquisition of supplies and services. The contracting officer must submit
the synopsis to the Government-wide Point of Entry that can be accessed on the Internet
at https://www.fedbizopps.gov. FAR 5.202, “Exceptions,” lists circumstances when the
contracting officer does not need to submit a synopsis, such as when a contract action
cites an unusual and compelling urgency as the exception to full and open competition.
In addition, FAR 5.203, “Publicizing and Response Time,” requires the synopsis to be
published for at least 15 days before issuing a solicitation or proposed contract action that
the Government intends to solicit and negotiate with only one source under the authority
of FAR 6.302. However, the contracting officer may establish a shorter period of
issuance for commercial items. FAR 5.207, “Preparation and Transmittal of Synopses,”
requires each synopsis submitted to the Government-wide Point of Entry to include
certain data elements as applicable, such as the date of the synopsis, the closing response
date, a proposed solicitation number, a description, and the point of contact or contracting
officer.

FAR Subpart 6.3, “Other Than Full and Open
Competition”
FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. Contracting without full and open competition is a violation of statute
and could be a violation of 10 U.S.C. §2304, unless permitted by an exception provided
in FAR 6.302, “Circumstances Permitting Other Than Full and Open Competition.”
FAR 6.302 lists the seven exceptions for contracting without full and open competition:
    •	 FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
       Will Satisfy Agency Requirements;”
    •	 FAR 6.302-2, “Unusual and Compelling Urgency;”
    •	 FAR 6.302-3, “Industrial Mobilization; Engineering, Developmental, or Research
       Capability; or Expert Services;”
    •	 FAR 6.302-4, “International Agreement;”
    •	 FAR 6.302-5, “Authorized or Required by Statute;”
    •	 FAR 6.302-6, “National Security;” and
    •	 FAR 6.302-7, “Public Interest.”

A contracting officer must not begin negotiations for or award a sole-source contract
without providing full and open competition unless the contracting officer justifies the
use of such action in writing, certifies the accuracy and completeness of the justification,
and obtains approval of the justification. FAR 6.303-2, “Content,” requires each



                                             14 

justification to contain sufficient facts and rationale to justify the use of the authority
cited. At a minimum each justification must contain:
    •	 the name of the agency and contracting activity and identification of the document
        as a “Justification for other than full and open competition;”
    •	 a description of the action being approved;
    •	 a description of the supplies or services required to meet the agency’s needs,
        including the estimated value;
    •	 the statutory authority permitting other than full and open competition;
    •	 a demonstration that the contractor’s unique qualifications or the nature of the
        acquisition requires the use of the authority cited;
    •	 a description of the efforts made to ensure offers are submitted from as many
        sources as practicable, including whether a notice was or will be publicized;
    •	 the contracting officer’s determination that the cost to the Government will be fair
        and reasonable;
    •	 a description and the results of the market research conducted or, if market
	
        research was not conducted, a reason it was not conducted;
	
    •	 any other facts supporting the use of other than full and open competition;
    •	 a listing of sources that expressed written interest in the acquisition;
    •	 a statement of the actions the agency may take to overcome any barriers to
	
        competition before a subsequent acquisition; and
	
    •	 the contracting officer’s certification that the justification is accurate and
	
        complete to the best of their knowledge and belief.
	

FAR 6.304, “Approval of the Justification,” identifies the person responsible for
approving the J&A based on the value of the proposed contract. The thresholds
discussed are the thresholds that were in place during the scope of the audit. The
contracting officer approves the J&A for a proposed contract not exceeding $550,000.
The competition advocate approves the J&A for a proposed contract of more than
$550,000 but not exceeding $11.5 million. A general or flag officer, if a member of the
military, or a civilian in a position above GS-15 under the general schedule, approves the
J&A for a proposed contract of more than $11.5 million but not exceeding $78.5 million.
The senior procurement executive of the agency approves the J&A for a proposed
contract of more than $78.5 million.

FAR Part 10, “Market Research”
FAR part 10 prescribes policies and procedures for conducting market research to arrive
at the most suitable approach for acquiring, distributing, and supporting supplies and
services. Agencies are required to conduct market research appropriate to the
circumstance before soliciting offers for acquisitions with an estimated value over the
simplified acquisition threshold. Agencies are required to use the results of market
research to determine if there are appropriate sources or commercial items capable of
satisfying the agency’s requirements. The extent of market research the agencies conduct
varies, depending on factors such as urgency, estimated dollar value, complexity, and
past experience. Agencies use market research techniques, such as contacting
knowledgeable individuals in Government and industry, reviewing results of recent


                                            15 

market research, publishing formal requests for information, querying databases,
participating in on-line communication, obtaining source lists of similar items, and
reviewing available product literature. Agencies should document the results of market
research in a manner appropriate to the size and complexity of the acquisition.




                                          16 

Appendix C. Noncompetitive Contracts Reviewed
Noncompetitive Contracts Awarded by ASC Contracting Division From FY 2010 Through FY 2011
                            Product                                                                Contract
       Contract Number                                  Description                   Award Date               Authority Cited   Contract Value*
                           or Service                                                               Type
1    FA8601-10-C-0026       Service              Logistics Support Services            3/31/2010     FFP        FAR 6.302-1         $9,570,792
                                                                                       7/06/2010
2    FA8601-10-C-0042       Product              Terahertz Imaging System                            FFP        FAR 6.302-1          $890,000

3    FA8601-10-C-0065       Service                Motor Pool Operations               10/1/2010     FFP        FAR 6.302-1         $1,849,916
                                        ADP Systems Development Services, Support
4    FA8604-11-C-7001       Service      for Centralized Access for Data Exchange      3/16/2011     FFP        FAR 6.302-1         $6,500,000
                                                          System
5    FA8604-11-C-7450       Service      Other ADP & Telecommunication Services       12/18/2010     FFP        FAR 6.302-1          $744,965

6    FA8604-11-D-7950       Service      Technical Representative Services-Aircraft   12/27/2010     FFP        FAR 6.302-1         $2,551,680
                                                                                                    Cost No
7    FA8620-10-C-3000       Service       Program Management Support Services          11/1/2009                FAR 6.302-1         $1,380,569
                                                                                                   Fee / FFP
                                        Aircraft, Fixed Wing-Global Hawk, Low Rate                 FPI-Firm
8    FA8620-11-C-3004       Product
                                                    Initial Production Lot 8
                                                                                      12/14/2010
                                                                                                    Target
                                                                                                                FAR 6.302-1        $352,876,093

                                        Aircraft, Fixed Wing-King Air 350 Extended
9    FA8620-11-C-4011       Product
                                                        Range Aircraft
                                                                                      10/29/2010     FFP        FAR 6.302-1        $37,433,212

10   FA8620-11-C-4021       Service       Program Management Support Services         12/16/2010     FFP        FAR 6.302-1          $859,210

11   FA8625-10-C-6505       Product      Boeing C-40 Executive Transport Aircraft     12/18/2009     FFP        FAR 6.302-1        $79,415,631
                                          B-1 Radar Reliability and Maintainability
12   FA8628-10-C-2254       Product
                                             Improvement Program Production
                                                                                       9/30/2010     FFP        FAR 6.302-1        $113,927,745

Acronyms and footnotes used throughout Appendix C are defined on the final page of Appendix C
	




                                                                      17 

Appendix C. Noncompetitive Contracts Reviewed (cont.)
Noncompetitive Contracts Awarded by ASC Contracting Division From FY 2010 Through FY 2011
	
                             Product
                                                                                    Award       Contract
       Contract Number         or                     Description                                           Authority Cited   Contract Value*
                                                                                     Date        Type
                             Service
                                             B-52 Flexible Acquisition and
                                          Sustainment(FAS) indefinite delivery,
13     FA8628-10-D-1000       Service
                                          indefinite quantity (IDIQ) contract to
                                                                                   9/29/2010      FFP        FAR 6.302-1        $8,887,806
                                            support the B-52 weapon system
                                        Advanced Data Transfer Unit for the F-16
14     FA8615-10-C-6046      Product                                               9/24/2010      FFP        FAR 6.302-1        $3,875,643
                                                       Aircraft
15     FA8607-11-C-2793      Product     16MM Inverted Image Intensifier Tubes     6/24/2011      FFP        FAR 6.302-1        $2,626,936
                                           C-17 Weapon System Trainer and
16     FA8621-11-C-6290      Product                                               12/20/2010     FFP        FAR 6.302-1        $44,650,914
                                        Loadmaster Station and necessary support




                                          Support in Accordance with Emerson
17     FA8604-11-C-7002      Service
                                                     Network Power
                                                                                   1/21/2011      FFP        FAR 6.302-1          $72,000




                                           C-130J Technical Engineering Data,
                                                                                                FFP, Cost
18     FA8625-11-C-6597      Product      Logistic Support Data, Reliability and    2/1/2011
                                                                                                 & T&M
                                                                                                             FAR 6.302-1       $129,213,252
                                         Maintainability Program, Onsite Support
19     FA8620-10-C-3009      Service     Advisory & Assistance Services Support    10/30/2009    T&M         FAR 6.302-1         $389,881
                                         Aircraft, Fixed Wing-Global Hawk, Low
20     FA8620-10-C-4000      Product
                                              Rate Initial Production Lot 10
                                                                                   5/20/2010      FFP        FAR 6.302-1       $580,600,000

                                                                                                  FFP,
                                         Aircraft, Fixed Wing-Global Hawk, Low                    FPI,,
21     FA8620-10-C-4007      Product
                                               Rate Initial Production lot 9
                                                                                   5/20/2010
                                                                                                  Firm
                                                                                                             FAR 6.302-1       $287,053,364
                                                                                                 Target

Acronyms and footnotes used throughout Appendix C are defined on the final page of Appendix C
	

                                                                     18 

Appendix C. Noncompetitive Contracts Reviewed (cont.)
Noncompetitive Contracts Awarded by ASC Contracting Division From FY 2010 Through FY 2011
                                    Product
                                                                                                   Award       Contract
         Contract Number              or                        Description                                                 Authority Cited   Contract Value*
                                                                                                    Date        Type
                                    Service
22       FA8620-11-C-4008           Product         King Air 350 Extended Range Aircraft         12/14/2010       FFP        FAR6.302-2          $15,174,040

23       FA8620-11-C-3006           Product                 Reconnaissance Pods                  1/21/2011        FFP        FAR 6.302-1         $77,580,152
                                                                                                                                              $1,758,123,801
                         Total Reviewed

*The contract value is the base award value excluding options or the maximum ceiling price at award.

CPFF    Cost-Plus-Fixed-Fee        FPI      Fixed-Price-Incentive     FAR 6.302-1          Only One Responsible Source
FFP     Firm-Fixed-Price           T&M      Time-and-Materials        FAR 6.302-2          Unusual and Compelling Urgency




                                                                              19 

Appendix D. Market Research Conducted
Noncompetitive Contracts Awarded by ASC Contracting Division From FY 2010 Through FY 2011
                                                                                                                                        Market
                        Estimated Value on                                          Results of Market
                                                                                                                                       Research
        Contract         the Justification                                       Research or Justification           Supporting
                                               Specific Steps Performed                                                                Considere
        Number             and Approval                                            for not performing               Documentation
                                                                                                                                          d
                              (J&A)                                                 Market Research
                                                                                                                                       Adequate
                                                Telephone calls were made to       The telephone calls provided
                                                 Tinker, Warner Robbins, and      information that each base has
                                                 Edwards Air Force Bases to         the same or similar type of
                                                determine how their Logistics      contract, but not one base has
                                                                                                                     Market research
                                                    Support Services were        the entire four functions on one
                                                                                                                      memorandum,
1    FA8601-10-C-0026        $11,258,239        contracted. A Sources Sought       contract. Six responses were                           Yes
                                                                                                                    J&A, and Sources
                                                synopsis was posted to advise       received from the Sources
                                                                                                                     Sought synopsis
                                               industry members of this bridge       Sought synopsis, but the
                                                   acquisition and to solicit     incumbent was deemed as the
                                                  capability packages for the       only technically acceptable
                                                 competed follow-on contract                 contractor
                                                                                   The commerciality market
                                                                                   research identified similar
                                               Market research was completed      products in the marketplace,
                                               to identify if commercial items    with the incumbent being the
2    FA8601-10-C-0042         $890,000                                                                               Memorandum           Yes
                                                 were available. A Sources         only one that met technical
                                                 Sought synopsis was posted       requirements. No responses
                                                                                     were received from the
                                                                                             synopsis
                                                                                                                    Memorandum for
                                               A Sources Sought synopsis was
3    FA8601-10-C-0065        $1,600,829                                           No responses were received        file and Sources      Yes
                                                          posted
                                                                                                                    Sought synopsis

Footnotes used throughout Appendix D are defined on the final page of Appendix D.
	




                                                                   20 

Appendix D. Market Research Conducted (cont.)
Noncompetitive Contracts Awarded by ASC Contracting Division From FY 2010 Through FY 2011
                         Estimated Value on                                                                                               Market
                                                                         Results of Market Research
          Contract        the Justification      Specific Steps                                                  Supporting              Research
                                                                           or Justification for not
          Number            and Approval          Performed                                                     Documentation           Considered
                                                                        performing Market Research
                               (J&A)                                                                                                     Adequate
                                                                        Industry knowledge was collected
                                                 An internet search      from end users. Five responses
                                                was performed and a     were received from the synopsis, in     Acquisition plan and
4     FA8604-11-C-7001        $34,100,000                                                                                                  Yes
                                                  Sources Sought        which three wanted to by the data     Sources Sought synopsis
                                                synopsis was posted        rights, but the incumbent was
                                                                          unwilling to sell the data rights
                                                No market research
5     FA8604-11-C-7450         $625,000                                 Short-term service bridge contract.            J&A                 Yes1
                                                 was performed
                                                 A Sources Sought
                                                synopsis was posted
                                                 to identify sources
6     FA8604-11-D-7950       $140,250,000                                  No responses were received         Sources Sought synopsis      Yes
                                                     interested in
                                                   subcontracting
                                                     possibilities
                                                No market research
7     FA8620-10-C-3000        $23,000,000                               Short-term service bridge contract.            J&A                 Yes1
                                                 was performed
                                                                        Original equipment manufacturer
                                                No market research
8     FA8620-11-C-3004      $8,625,000,000(2)                           and Government does not own the                J&A                 Yes1
                                                 was performed
                                                                            data rights to the program.
                                                  Limited market
                                                                           Urgent requirement and fleet
9     FA8620-11-C-4011        $45,000,000          research was                                                        J&A                 Yes1
                                                                                   uniformity.
                                                    performed
                                                  Limited market
10    FA8620-11-C-4021         $1,044,309          research was         Short-term service bridge contract.          Synopsis              Yes1
                                                    performed

Footnotes used throughout Appendix D are defined on the final page of Appendix D.



                                                                   21
Appendix D. Market Research Conducted (cont.)
Noncompetitive Contracts Awarded by ASC Contracting Division From FY 2010 Through FY 2011
                                                                                                                                           Market
                        Estimated Value on                                Results of Market Research or
         Contract                                  Specific Steps                                                     Supporting          Research
                        the Justification and                                  Justification for not
         Number                                     Performed                                                        Documentation       Considered
                          Approval (J&A)                                  performing Market Research
                                                                                                                                          Adequate
      FA8625-10-C-                                A Sources Sought        The incumbent was the only source to        Sources Sought
11                          $1,250,000,000(2)                                                                                               Yes
      6505                                       synopsis was posted               submit a response                     synopsis
                                                                           The Defense Contract Management
                                                  A Defense Contract      Agency audit validated and concurred
                                                 Management Agency          with the incumbent’s Data Rights
                                                audit was conducted to       Assertions for the B-1 program.         Defense Contract
      FA8628-10-C-                                validate data rights    Three responses were received to the      Management Agency
12                           $195,000,000                                                                                                   Yes
      2254                                       assertions for the B-1      synopsis. Two of the responses          audit and Sources
                                                 hardware. A Sources         withdrew interest after receiving        Sought synopsis
                                                 Sought synopsis was        clarification on the Government’s
                                                         posted            interest and availability of technical
                                                                                            data
                                                                          Original equipment manufacturer and
      FA8628-10-D-                               No market research
13                         $11,900,000,000(2)                              Government does not own the data                J&A              Yes1
      1000                                        was performed
                                                                                  rights to the program.
                                                   Internet keyword         The market research demonstrated
                                                search was conducted,      that no manufacturer other than the
      FA8615-10-C-
14    6046
                              $48,000,000       as well as querying of     incumbent produces F-16 qualified               J&A              Yes
                                                other aircraft program     advanced data transfer equipment at
                                                        offices                         this time
                                                  Testing done by the
                                                                            Testing done by the Navy revealed
                                                     Navy for the
                                                                          that tubes produced by Photonis were
                                                     suitability of
      FA8607-11-C-                                                           not adequate. Three companies           J&A and Sources
15                            $11,500,000       alternatives to the ITT                                                                     Yes
      2793                                                                 responded to the synopsis, but only        Sought synopsis
                                                tubes was analyzed. A
                                                                          ITT’s product met the Government’s
                                                    Sources Sought
                                                                                       requirements
                                                  synopsis was posted

Footnotes used throughout Appendix D are defined on the final page of Appendix D.

                                                                  22
Appendix D. Market Research Conducted (cont.)
Noncompetitive Contracts Awarded by ASC Contracting Division From FY 2010 Through FY 2011
                        Estimated Value on                                                                                                        Market
	
                                                                              Results of Market Research or 

         Contract 
      the Justification       Specific Steps 
                                                             Supporting
	       Research
	
                                                                             Justification for not performing 

         Number
	          and Approval           Performed
	                                                                Documentation
	    Considered 

                                                                                     Market Research
	
                              (J&A)                                                                                                              Adequate
	
                                                                            Though there are facets of this acquisition
                                                                                  that are not "Military-unique", i.e.
                                                                              contractor logistics support and most of
                                                                             aircrew instruction, the Government has
                                                                               concluded that this capability does not
                                                                             either exist in the commercial sector, nor
                                                                                are of a type customarily used by the
                                                   Historical data,
                                                                              general public or by non-governmental
                                                internet searches, the
                                                                            entities. There is a lot of data available for
                                                     request for
        FA8621-11-C-                                                        contractors to successfully create a bid for      Market research
16                          $3,923,800,000        information, and                                                                                   Yes
           6290                                                                this acquisition. Although the data is             report
                                               telephone discussions
                                                                                 available and would be provided to
                                                 were used to collect
                                                                                 competing bidders, a complete data
                                                  competition data
                                                                              package would require substantial non-
                                                                                   recurring engineering support to
                                                                               assimilate. This alone would result in
                                                                              significantly higher costs and schedule
                                                                             delays. The C-17 Training Systems data
                                                                                   library is already available at the
                                                                                        Government's disposal.
                                               This contract was not
        FA8604-11-C-                           required to complete
17                             $72,000                                                    Not Applicable                      Not Applicable    Not Applicable
           7002                                 market research, per
                                               FAR 10.001(a)(2)(iii)

Footnotes used throughout Appendix D are defined on the final page of Appendix D.
	




                                                                     23 

Appendix D. Market Research Conducted (cont.)
Noncompetitive Contracts Awarded by ASC Contracting Division From FY 2010 Through FY 2011
                                                                                                Results of Market                                             Market
                                Estimated Value on the
              Contract                                              Specific Steps           Research or Justification             Supporting                Research
                                   Justification and
              Number                                                 Performed                 for not Performing                 Documentation             Considered
                                   Approval (J&A)
                                                                                                Market Research                                              Adequate
                                                                 Acquisition prices for
                                                                 various military cargo     The price of the C-130J aircraft
                                                                 aircraft were reviewed       was well below the average
                                                                   and compared to the       price and the median price of
                                                                                                                                   J&A and market
18                                   $12,300,000,000(2)            price of the C-130J.        aircraft surveyed. The C-                                       Yes
                                                                                                                                    research report
                                                                    Prices per unit of         130J’s price was half the
                                                                  transport power were      average value and less than the
                                                                compared to the C-130J,         median value surveyed.
                                                                         as well.
           FA8620-10-C-                                          No market research was        Short-term service bridge
19                                        $250,000                                                                                       J&A                   Yes1
           3009                                                       performed                        contract.
                                                                                                  Original equipment
           FA8620-10-C-                                (2)       No market research was      manufacturer and Government
20                                    $8,625,000,000                                                                                     J&A                   Yes1
           4000                                                       performed              does not own the data rights to
                                                                                                      the program.
                                                                                                  Original equipment
           FA8620-10-C-                                          No market research was      manufacturer and Government
21                                    $8,625,000,000(2)                                                                                  J&A                   Yes1
           4007                                                       performed              does not own the data rights to
                                                                                                      the program.
           FA8620-11-C-                                          Limited market research      Urgent requirement and fleet
22                                      $17,000,000                                                                                      J&A                   Yes1
           4008                                                      was performed                    uniformity.
                                                                                             Two responses were received,
                                                                                             but neither firm demonstrated
           FA8620-11-C-                                             A Sources Sought           access to the incumbent’s           Sources Sought
23                                      $72,000,000                                                                                                            Yes
           3006                                                    synopsis was posted       proprietary data necessary to        synopsis and J&A
                                                                                                   perform necessary
                                                                                                      requirements
1
    Although limited or no market research was conducted, the rationale provided for conducting limited or no market research was considered appropriate.
2
    Class J&A

                                                                                24
